F




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Inspections and Special Inquiries




    Inspection Report

    Quality Assurance Weaknesses in the
    Review of Yucca Mountain Electronic Mail
    for Relevancy to the Licensing Process




    DOE/IG-0708                                         November 2005
QUALITY ASSURANCE WEAKNESSES IN THE REVIEW OF
YUCCA MOUNTAIN ELECTRONIC MAIL FOR RELEVANCY
TO THE LICENSING PROCESS



TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives…………………….….……… 1

              Observations and Conclusions………………………....... 2


              DETAILS OF FINDINGS

              Review of E-mails for Inclusion in the LSN…..………….   4

              Possible Conditions Adverse to Quality……..…………..     6


              RECOMMENDATIONS…………..…………….……….… 7


              MANAGEMENT COMMENTS…………………..….…….                    7


              INSPECTOR COMMENTS………………………………..                     7


              APPENDICES

              A. Sample E-mails………………………….……..….…… 8

              B. Scope and Methodology…………………………….… 9

              C. Management Comments……………………………… 10
Overview

INTRODUCTION AND   In 2002, Congress approved construction of a geological
OBJECTIVES         waste repository in Yucca Mountain, Nevada, to dispose of spent
                   nuclear fuel and radioactive waste. Prior to construction, the
                   Nuclear Regulatory Commission (NRC) must grant the Department
                   of Energy (DOE) a license to build the facility. As part of the
                   licensing process, DOE is required to publicly disclose all
                   documents relevant to the licensing process, including electronic
                   mail (e-mail), by posting them on DOE’s public website. The
                   website is accessible through the NRC-sponsored Licensing Support
                   Network (LSN). The DOE Office of Civilian Radioactive Waste
                   Management (OCRWM) is responsible for all aspects of the Yucca
                   Mountain Project (Yucca), including the licensing application
                   process.

                   In June 2004, OCRWM submitted approximately 689,000 e-mails
                   to the NRC that had been reviewed by their authors and determined
                   to be relevant to the licensing process. These were part of a group
                   of approximately 6 million archived e-mails authored by individuals
                   still associated with Yucca. In August 2004, the NRC determined
                   that DOE had not met its regulatory obligation to make all relevant
                   documentary material available. Specifically, DOE had not
                   reviewed a group of approximately 4 million archived e-mails
                   authored by individuals no longer affiliated with Yucca to
                   determine whether the e-mails were relevant to the licensing
                   process. In September 2004, OCRWM formed the LSN Archival
                   E-mail Review Team to review these additional e-mails to
                   determine their relevancy to the licensing process. The Review
                   Team work was assigned to contractor personnel, a number of
                   whom were specifically retained for this purpose.

                   In March 2005, the Office of Inspector General’s Office of
                   Investigations opened a criminal investigation into allegations
                   involving Yucca-related quality assurance issues raised in certain
                   e-mails authored by an individual formerly associated with Yucca.
                   Subsequently, the Office of Inspector General’s Office of
                   Inspections and Special Inquiries initiated a separate inspection to
                   examine internal controls associated with the quality assurance
                   process at Yucca.

                   As part of the inspection, we examined the adequacy of the review
                   process for the approximately 10 million archived e-mails.
                   Specifically, OCRWM procedures identify a “condition adverse to


Page 1                                           Quality Assurance Weaknesses in
                                                the Review of Yucca Mountain
                                                Electronic Mail for Relevancy to the
                                                Licensing Process
                  quality” as a state of non-compliance with a Quality Assurance
                  Program requirement or a Quality Assurance Program
                  implementing document requirement. The procedures include
                  specific requirements for identifying, investigating, reporting, and
                  resolving such conditions. We examined whether the relevancy
                  review assured that conditions adverse to quality at Yucca were
                  promptly included in this process. This report does not address the
                  separate criminal investigation.

OBSERVATIONS      We found that the process for reviewing the approximately
AND CONCLUSIONS   10 million archived e-mails did not fully assure that conditions
                  adverse to quality were promptly identified, investigated, reported,
                  and resolved. Specifically:

                  •   There was no evidence that OCRWM requirements for
                      identifying and addressing conditions adverse to quality were
                      considered during the relevancy review; and,

                  •   Among the approximately 10 million e-mails that had already
                      been reviewed for relevancy to the licensing process, we found
                      e-mails that identified possible conditions adverse to quality at
                      Yucca. However, these e-mails had not been identified by
                      Yucca personnel as requiring further review for possible
                      quality assurance conditions. For example, one e-mail stated
                      “It’s not strange when OQA [Office of Quality Assurance] just
                      discovered that QA software requirements were being
                      ignored.”

                  Appendix A provides examples of e-mails containing possible
                  conditions adverse to quality at Yucca. These examples were
                  drawn by Office of Inspector General personnel from both the
                  e-mails deemed relevant and those deemed not relevant to the
                  licensing process.

                  We discussed these e-mails with two responsible Yucca officials to
                  determine what, if any, actions they would take in response to the
                  e-mails. Consistent with OCRWM procedures, both officials
                  indicated that the contents of the e-mails would have caused them
                  to conduct further investigation to determine whether there was a
                  condition that needed to be reported and addressed.

                  In response to the significant attention being given to possible
                  quality assurance issues contained in Yucca e-mails, OCRWM
                  initiated an effort to conduct certain “key word” searches of those e-
                  mails already deemed relevant to the licensing process by their



Page 2                                              Observations and Conclusions
                                  authors or the LSN Archival E-mail Review Team. This group of e-
                                  mails totaled approximately 1,089,000. According to OCRWM
                                  documentation, its key word search was intended to identify willful
                                  non-compliance with or a cavalier attitude toward quality assurance
                                  requirements. As currently structured, e-mails deemed not relevant
                                  to the licensing process will receive no further scrutiny, which could
                                  result in possible conditions adverse to quality remaining
                                  undetected.1

                                  As indicated previously, the relevancy review process had not
                                  identified any possible conditions adverse to quality. Yet, we
                                  identified possible conditions adverse to quality in e-mails that
                                  had, in fact, already been reviewed for relevancy to the licensing
                                  process. Further, a number of these e-mails had been deemed not
                                  relevant to the licensing process.

                                  Consequently, we believe that OCRWM should expand its quality
                                  assurance-related search effort. This effort should include a more
                                  comprehensive review of the approximately 10 million archived
                                  e-mails to assure that all conditions adverse to quality are
                                  appropriately identified, investigated, reported, and resolved.




1
 Draft documentation provided by OCRWM officials indicated that a sample of 695 e-mails deemed not relevant
was subjected to review for potential willful noncompliance with the Quality Assurance Program or a pervasive
cavalier attitude toward quality assurance.


Page 3                                                                   Observations and Conclusions
Details of Findings

REVIEW OF E-MAILS     We found that the process for reviewing the approximately
FOR INCLUSION IN      10 million archived e-mails did not fully assure that conditions
THE LSN               adverse to quality were promptly identified, investigated, reported,
                      and resolved. Specifically, there was no evidence that OCRWM
                      requirements in this regard were considered during the relevancy
                      review process.

                      OCRWM’s Administrative Procedure 16.1 Q, “Condition
                      Reporting and Resolution,” establishes the processes to ensure that
                      “conditions” related to Yucca work activities were promptly
                      identified. The Procedure is applicable to all Federal and
                      contractor personnel working on Yucca matters, including
                      contractor personnel retained solely for conducting the relevancy
                      review.

                      In Administrative Procedure 16.1 Q, a “condition adverse to
                      quality” is defined as a state of non-compliance with a Quality
                      Assurance Program requirement or a Quality Assurance Program
                      implementing document requirement. According to the Procedure,
                      the condition must be entered into OCRWM’s Corrective Action
                      Program (CAP) system as soon as practical after identification.
                      The Procedure recognizes that some investigation may be required
                      and states that “the condition shall be entered into the CAP system
                      as soon as there is reasonable confidence that the issue exists and
                      that it can be characterized in a Condition Report.” The CAP
                      system is the primary mechanism for reporting and resolving
                      identified problems.

                      We determined that the guidance issued for the review of
                      documents for inclusion in the LSN did not address Administrative
                      Procedure 16.1 Q. The guidance, which was issued on May 5,
                      2003, by DOE’s General Counsel, provided direction on how to
                      determine relevancy and required that any documents (including
                      paper copies, electronic documents, e-mails, etc.) potentially
                      relevant to licensing-related activities be segregated and retained
                      for LSN processing. Responsible Yucca officials confirmed that
                      the relevancy review did not consider the provisions of
                      Administrative Procedure 16.1 Q.

                      OCRWM reviewed the approximately 10 million Yucca e-mails
                      using the guidance developed by General Counsel. Of the
                      approximately 6 million e-mails reviewed for relevancy by their
                      authors, approximately 689,000 were determined to be relevant.
                      The remaining 4 million e-mails were reviewed by the LSN



Page 4                                                               Details of Findings
         Archival E-mail Review Team, and approximately 400,000 were
         determined to be relevant.

         We found that no conditions adverse to quality were entered into
         the CAP system as a direct result of the relevancy reviews of the
         approximately 10 million e-mails. Further, there was only one
         instance where a reviewer raised concerns about the substantive
         content of e-mails generated by one author. In November 2004, a
         member of the LSN Archival E-mail Review Team identified a
         series of e-mails that called into question the author’s integrity,
         especially regarding the software the author was tasked to create.
         The subject matter contained in the e-mails was not entered into
         the CAP system by the Review Team member. The Review Team
         member brought these e-mails to the attention of the Yucca
         management and operating contractor, which held the e-mails for
         more than four months without taking any action even though
         these e-mails suggested deliberate acts to falsify quality assurance
         records.

         An April 19, 2005, assessment performed by OCRWM’s Office of
         Performance Management and Improvement found that the
         management and operating contractor had failed to enter into the
         CAP system the conditions in the e-mails as reported by the Review
         Team member. This finding confirmed the applicability of the
         requirements in Administrative Procedure 16.1 Q to information
         contained in the Yucca e-mails and their review for relevancy to the
         licensing process. Subsequently, one “condition” was entered into
         the CAP system regarding the series of e-mails that had been
         questioned by the LSN Archival E-mail Review Team member.
         Ultimately, these e-mails, which were formally acknowledged by the
         Department on March 16, 2005, as indicating possible falsification of
         documentation related to the Yucca project, became the basis for the
         criminal investigation mentioned previously in this report.

         OCRWM officials stated to us that they had not anticipated that the
         e-mails being reviewed for inclusion in the LSN might contain
         matters affecting quality assurance. Although quality assurance
         was an overarching OCRWM requirement and Administrative
         Procedure 16.1 Q should have been applicable to the e-mail
         reviews, OCRWM officials acknowledged that the guidance
         provided to reviewers focused only on making relevancy
         determinations. Our findings were consistent with this
         acknowledgement; in short, there was no evidence to suggest that
         reviewers were specifically made aware that the requirements of
         Administrative Procedure 16.1 Q applied to their work.



Page 5                                                  Details of Findings
POSSIBLE     In addition to the original e-mails that were the basis for opening
CONDITIONS   the criminal investigation and other e-mails authored by the same
ADVERSE TO   person, the Office of Inspector General found e-mails by other
QUALITY      authors that identified possible conditions adverse to quality at
             Yucca. However, these e-mails had not been identified by Yucca
             personnel as requiring further review for possible quality assurance
             conditions. For example, one e-mail stated “It’s not strange when
             OQA just discovered that QA software requirements were being
             ignored.” Appendix A provides additional examples Office of
             Inspector General personnel drew from both the e-mails deemed
             relevant and those deemed not relevant to the licensing process.

             We discussed the e-mails listed in Appendix A with responsible
             Yucca officials to determine what, if any, actions they would have
             taken based on the contents of the e-mails. Consistent with the
             requirements of OCRWM Administrative Procedure 16.1 Q, the
             officials indicated that the contents of the e-mails would have
             caused them to conduct further investigation to determine whether
             there was a condition that needed to be reported and addressed.

             As a result of the significant attention being given to possible quality
             issues contained in Yucca e-mails, OCRWM initiated an effort to
             conduct certain key word searches of the approximately 1,089,000
             e-mails that had been deemed relevant to the licensing process
             through review by their authors or the LSN Archival E-mail Review
             Team. According to OCRWM documentation, its key word search
             was intended to identify willful non-compliance with or a cavalier
             attitude toward quality assurance requirements. As currently
             structured, e-mails deemed not relevant will receive no further
             scrutiny. Consequently, possible conditions adverse to quality may
             not be detected.

             As indicated previously, OCRWM’s formal relevancy review
             process had not identified any possible conditions adverse to
             quality. However, we identified such conditions in e-mails that
             had, in fact, already been reviewed for relevancy to the licensing
             process. Further, a number of these e-mails had been deemed not
             relevant to the licensing process.

             As noted previously, about 1,089,000 e-mails have been identified
             as relevant and will undergo a key word examination to identify
             possible quality assurance issues. However, based on the evidence
             developed during the inspection, we concluded that OCRWM
             should expand its search effort. This effort should include a more
             comprehensive review of the approximately 10 million archived



Page 6                                                       Details of Findings
                  e-mails to assure that all conditions adverse to quality are
                  appropriately identified, investigated, reported, and resolved.

                  We were informed that OCRWM is currently developing a
                  searchable database of all existing Yucca e-mails. It appears that
                  this database could provide the means for conducting a more
                  comprehensive review of the approximately 10 million archived
                  e-mails to assure that all conditions adverse to quality are
                  addressed.

RECOMMENDATIONS   We recommend that the Director, OCRWM:

                  1. Expand the review of archived e-mails to include both those
                     deemed relevant and those deemed not relevant to the licensing
                     process, and ensure that conditions adverse to quality are
                     appropriately identified, investigated, reported, and resolved
                     under the CAP system.

                  2. Ensure that current and future e-mails are reviewed for possible
                     conditions adverse to quality and that such conditions are
                     appropriately addressed under the CAP system.

                  3. Ensure that all OCRWM/Yucca personnel are instructed in the
                     appropriate application of the CAP system to all
                     documentation related to Yucca Mountain.

MANAGEMENT        In comments on our draft report, management accepted the report
COMMENTS          recommendations and stated it will prepare corrective action plans
                  to address our concerns.

INSPECTOR         We found management’s comments to be responsive to our
COMMENTS          recommendations.




Page 7                                                     Recommendations
                                          Management and Inspector Comments
Appendix A

SAMPLE E-MAILS   The Office of Inspector General reviewed a sample of archived
                 e-mails from both the group of e-mails deemed relevant and the
                 group of e-mails deemed not relevant to the licensing process.
                 This review identified a number of e-mails containing language
                 that could indicate possible conditions adverse to quality. Some
                 examples of these e-mails are as follows:

                 E-mail Subject: Re: QA Stuff

                 Text: “Remember in the report we said the results are QA even if
                 the rainfall is not because this is simply one realization of what
                 could happen. Our best guess. Screw’em. It’s a lovely, 85, sunny,
                 warm breeze. It’s nice to be disconnected and not caring whether
                 it’s QA or not. If you can’t give them QA then fine.”

                 E-mail Subject: Re: Question concerning the ISM PMR Rev01.

                 Text: “[redacted]—Per our discussion with the Subject Matter
                 Expert, [redacted] has just advised a large group to violate the QA
                 program . . . until the planned change to AP-3.15Q can be
                 officially implemented.”

                 E-mail Subject: AMR U0010

                 Text: “It’s not strange when OQA just discovered that QA
                 software requirements were being ignored.”

                 E-mail Subject: Scientific Notebook

                 Text: “. . . we may want to backdate the notebook to when we
                 started putting things together.”

                 E-mail Subject: Re: Earth info

                 Text: “[redacted], we really need some methods (make up
                 something 1 or 2 lines) and beginning and ending data collection
                 date for the whole package. ASAP to be able to prepare the
                 TDIF.”




Page 8                                                             Sample E-mails
Appendix B

SCOPE AND     The field work for this inspection was conducted between
METHODOLOGY   March 2005 and July 2005. We interviewed DOE and DOE
              contractor officials associated with Yucca. We reviewed relevant
              documentation, including OCRWM procedures, Condition
              Reports, Certification Plans, training manuals, briefing documents,
              requisition orders, subcontracts, DOE directives, memoranda, a
              prior Office of Inspector General report, and NRC’s Memorandum
              and Order.

              The Office of Inspector General’s Office of Investigations
              obtained and reviewed e-mails authored by or associated with
              individuals formerly involved with Yucca who are the subjects of a
              criminal investigation. The e-mails were drawn from both the
              group of e-mails deemed relevant and the group of e-mails deemed
              not relevant to the licensing process.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                                Scope and Methodology
Appendix C




Page 10      Management Comments
                                                                    IG Report No. DOE/IG-0708

                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
